SEPTEMBER 14, 2010
  AUDIT REPORT




                                                      OFFICE OF AUDITS




    AUDIT OF NASA’S EFFORTS TO CONTINUOUSLY
    MONITOR CRITICAL INFORMATION TECHNOLOGY
               SECURITY CONTROLS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-10-019 (ASSIGNMENT NO. A-09-004-02)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CIO          Chief Information Officer
CIS          Center for Internet Security
FISMA        Federal Information Security Management Act
FY           Fiscal Year
IT           Information Technology
NITR         NASA Information Technology Requirement
OCIO         Office of the Chief Information Officer
OIG          Office of Inspector General


                                                           REPORT NO. IG-10-019
SEPTEMBER 14, 2010




                                                                                     OVERVIEW

       AUDIT OF NASA’S EFFORTS TO CONTINUOUSLY MONITOR
      CRITICAL INFORMATION TECHNOLOGY SECURITY CONTROLS

                                                                                       The Issue

  As part of our annual audit of NASA’s compliance with the Federal Information Security
  Management Act (FISMA), the Office of Inspector General (OIG) evaluated whether
  NASA had processes in place at selected Centers to continuously monitor critical
  information technology (IT) security controls. Specifically, we assessed whether NASA
  had effective processes in place to ensure that its computers remained securely
  configured and free of vulnerabilities and that software patches were timely and
  appropriately applied. We also reviewed internal controls as appropriate. We performed
  our site work at Goddard Space Flight Center, Johnson Space Center, Kennedy Space
  Center, and Langley Research Center. See Appendix A for details of the audit’s scope
  and methodology.

                                                                                           Results

  Continuous monitoring of security controls is an essential element of an organization’s
  IT security program. We found that NASA’s processes for continuous monitoring of its
  operating system configurations, system vulnerabilities, and software patch levels were
  not fully effective for protecting critical Agency information resources. For example,
  none of the four Centers we visited monitored operating system configurations on their
  computer servers to ensure they remained securely configured over time. Although all
  four Centers had implemented NASA’s vulnerability management process that includes
  automated vulnerability discovery, prioritized remediation, and the quarantine of
  computers with unmitigated vulnerabilities, we found that this process could be improved
  by adding a control to provide assurance that 100 percent of the Centers’ computer
  networks are continuously monitored. Similarly, the Centers could improve the
  implementation of their software patch management process by ensuring that all of the
  Centers’ computers are included in the process.

  In a March 2006 OIG audit report, we recommended that Centers establish inventories of
  their computers. 1 Although the Agency concurred with that recommendation, NASA
  decided to implement a single Agency-wide inventory instead of Center-level
  inventories, which delayed implementation until at least September 2010. In this review,
  we found that the lack of complete and up-to-date inventories is a barrier to effective
  1
      “NASA’s Implementation of Patch Management Software Is Incomplete” (IG-06-007, March 17, 2006).



REPORT NO. IG-10-019
                                                                                                        OVERVIEW



     monitoring of IT security controls. Accurate inventory lists increase the effectiveness of
     an IT security program by providing a means to verify that 100 percent of the computers
     in the Agency’s network are subject to configuration, vulnerability, and patch monitoring.
     Until NASA establishes a complete inventory of its network resources, Centers will be
     unable to fully implement these key IT security controls and NASA’s IT security
     program will not be fully effective in protecting the Agency’s valuable IT resources from
     potential exploitation.

     Management Action

     In order to strengthen the Agency’s IT security program, we urged NASA to expedite
     implementation of our 2006 recommendation to establish complete inventories of Agency
     computer networks – to include computers, firewalls, routers, and switches. 2 In addition,
     we recommended that NASA’s Chief Information Officer require the Centers to
     (1) continuously monitor computer server operating system configuration settings and
     (2) implement a process to verify that vulnerability monitoring includes 100 percent of
     applicable network devices. We also found that NASA did not require system owners to
     install NASA’s patch management program but made no recommendation concerning
     this issue because NASA issued corrective policy during the course of our audit.

     In response to our July 13, 2010, draft report, the Chief Information Officer (CIO)
     concurred with our recommendation that NASA establish inventories of the computers
     connected to its networks. The CIO stated that NASA has developed an inventory
     system that became operational in July 2010. Our preliminary review of the inventory
     system found that it contained detailed information on various computers to include
     Internet protocol address, computer operating system (when appropriate), device type,
     location, and software patch and vulnerability status. As of September 9, 2010, the
     inventory system listed more than 163,000 devices that according to NASA management
     represents a “significant proportion” of the total devices connected to NASA’s networks.

     The CIO also concurred with our recommendation to monitor computer server
     configuration settings and stated that a security configuration baseline will be developed
     for one server operating system (Windows Server 2003) by January 1, 2011, and that
     guidance requiring monitoring of compliance with this configuration will be issued by
     August 2011. We do not believe that these actions are fully responsive to our
     recommendation because they do not apply to all server operating systems used by
     NASA. In addition, compliance monitoring for this single server operating system will
     not be implemented until August 2011. Accordingly, we have requested that the CIO
     further address the scope and timeliness of the Agency’s planned action.


     2
         As we noted in our March 2006 report, “NASA’s Implementation of Patch Management Software Is
         Incomplete” (IG-06-007), an ideal inventory would consist of a current, complete listing of all NASA
         computers, by Center, maintained in one location. The inventory would ideally include the computer
         identification number, Internet protocol address (when appropriate), operating system, and location.



ii                                                                                        REPORT NO. IG-10-019
OVERVIEW



  The CIO partially concurred with our recommendation concerning the monitoring of
  devices connected to NASA’s networks, stating that, in her view, it is impossible to
  ensure that 100 percent of devices are monitored for vulnerabilities. Although we agree
  that NASA’s vulnerability management program may never attain 100 percent coverage
  of all network devices, we believe that NASA can take steps to move toward this goal.
  Accordingly, we are requesting that NASA implement processes to measure current
  vulnerability scanning coverage and to increase that coverage over time.

  Finally, the CIO requested that we remove our finding that NASA’s process for
  monitoring software patches was not effective because the CIO issued a policy to address
  this issue during the course of our audit. As discussed in the report, at the time of our site
  visits to the Centers NASA did not require owners of Agency information systems to
  implement NASA’s patch monitoring and reporting solution (PatchLink) and, as a result,
  NASA did not have assurance that all applicable systems were at the correct software
  patch level. After we notified Agency managers of our preliminary finding and indicated
  that we intended to recommend that the Agency require system owners to implement
  Patchlink, the CIO issued a policy requiring Patchlink implementation. In the draft
  report, we acknowledged that this policy should address our finding and, therefore, did
  not recommend further action. We believe it is appropriate to discuss the issue and
  NASA’s corrective action in the final public version of our report.

  See Appendix B for the full text of management’s comments.




REPORT NO. IG-10-019                                                                               iii
SEPTEMBER 14, 2010




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 2

  RESULTS
      NASA Did Not Monitor Its Computer Servers to Ensure They
        Remained Securely Configured ________________________ 3
      NASA’s Vulnerability Management Program Could Be Improved _ 6
      NASA’s Process for Monitoring Agency IT Systems for
        Software Patches Was Not Effective ____________________ 8

  APPENDIX A
      Scope and Methodology _______________________________ 11
      Review of Internal Controls ____________________________ 12
      Prior Coverage ______________________________________ 12

  APPENDIX B
      Management Comments ______________________________ 13

  APPENDIX C
      Report Distribution ___________________________________ 16




REPORT NO. IG-10-019
SEPTEMBER 14, 2010




                                                                                   INTRODUCTION


Background

  As part of our Federal Information Security Management Act (FISMA) audit for fiscal
  year (FY) 2009, we assessed NASA processes for meeting the continuous security
  control monitoring requirement defined in the National Institute of Standards and
  Technology Special Publication 800-37. 3 Specifically, we reviewed Center processes for
  maintaining the security of their systems by continuously monitoring key controls related
  to computer server operating system configuration, vulnerability detection and
  remediation, and software patching. We conducted our review at four Centers: Goddard
  Space Flight Center, Johnson Space Center, Kennedy Space Center, and Langley
  Research Center. Computer systems at these Centers support operations that span all of
  NASA’s primary mission areas: Aeronautics Research (Langley), Space Exploration and
  Space Operations (Johnson and Kennedy), and Science (Goddard).

  In general, configuration management is the process of assessing and, if necessary,
  modifying settings to ensure that critical network resources including computer servers
  remain in a secure state and are not vulnerable to exploitation. Often, operating systems
  on computer servers are configured by the vendor for ease-of-deployment and ease-of-
  use rather than for security, leaving them exploitable in their default state. To address
  this issue, the Center for Internet Security (CIS) has published recommended
  configuration settings, called benchmarks, for securing a wide variety of computer
  operating systems. NASA has adopted the CIS benchmarks as a best practice for the
  secure configuration of operating systems on its computer servers.

  Unfortunately, initializing a computer server’s operating system to a secure state is not
  sufficient to ensure ongoing protection against exploitation. Because operating system
  configurations can change when software patches are applied or when computers are
  upgraded, it is necessary to monitor operating systems on a continuous basis to ensure
  they remain securely configured.

  Accordingly, continuous monitoring of security controls is an essential element of an
  organization’s information technology (IT) security program. The goal of continuous
  monitoring is to determine whether a system’s key security controls continue to be
  effective over time in light of changes to hardware or software. A well-designed and
  well-managed continuous monitoring program can transform an otherwise static security
  control assessment and risk determination process to a dynamic process that provides
  essential information about a system’s security status. This, in turn, enables officials to


  3
      “Guide for the Security Certification and Accreditation of Federal Information Systems,” May 2004.



REPORT NO. IG-10-019                                                                                       1
                                                                                               INTRODUCTION



    take timely risk mitigation actions and make risk-based decisions regarding the operation
    of the information system.

    Remediating system vulnerabilities and applying software patches also help prevent the
    exploitation of vulnerabilities within an organization’s information systems.
    Vulnerabilities are software flaws or system misconfigurations that can be exploited to
    gain access to or control of an information system. Vulnerability scanners are specialized
    commercial software programs that automate the vulnerability detection process.
    Vulnerability scanners search large databases of known vulnerabilities associated with
    commonly used computer operating systems and software applications. When a match is
    found in the database, the scanner alerts the operator to a possible vulnerability. The
    scanners rank vulnerabilities according to their potential to harm the system, allowing
    organizations to prioritize and address their most critical vulnerabilities. Most
    vulnerability scanners also generate reports to help system administrators fix discovered
    vulnerabilities. System administrators commonly remediate vulnerabilities by applying a
    software patch, by updating a system’s configuration, or by adding a compensating
    control such as encryption to ensure data integrity. 4

    NASA’s Chief Information Officer (CIO) is responsible for developing and overseeing
    Agency-wide, risk-based, and cost-effective policies and procedures for safeguarding
    NASA’s IT resources. Center CIOs and Center Information Technology Security
    Managers are responsible for enforcing security policies and procedures by identifying
    potential risks and implementing operational and technical controls that cost-effectively
    mitigate the identified risks. These officials are also responsible for implementing
    measures to continuously monitor key security controls to ensure the availability,
    confidentiality, and integrity of Agency IT resources.


Objectives

    We examined whether NASA had effective processes for continuously monitoring key IT
    security controls at four of its Centers. Specifically, we assessed whether NASA had
    processes in place for
          •    ensuring computer server operating systems remain securely configured
               (configuration management);
          •    detecting and remediating system technical vulnerabilities (vulnerability
               management); and
          •    ensuring that systems are at the correct software patch level (patch management).

    We also reviewed internal controls as appropriate. See Appendix A for details of the
    audit’s scope and methodology.
    4
        Software patches are pieces of computer code developed to address problems in computer software. The
        patches enable new functionality or address security flaws in the software.



2                                                                                     REPORT NO. IG-10-019
RESULTS




                                               NASA DID NOT MONITOR ITS
                                                    COMPUTER SERVERS TO
                                                  ENSURE THEY REMAINED
                                                    SECURELY CONFIGURED

          Although NASA requires Agency-wide use of CIS operating system configuration
          settings for securing Agency computer servers, the four Centers we visited did not
          have effective processes in place to ensure their computer servers remained securely
          configured over time. This occurred because NASA did not require Centers to
          continuously monitor their computer servers against the respective CIS benchmarks.
          Further, because Centers did not have complete inventories of their computers, they
          could not confirm that the applicable benchmarks had been applied to all equipment.

          Regular monitoring of server configurations is essential for maintaining the security
          of NASA’s computer systems and networks. For example, improperly configured
          and unmonitored computer servers are susceptible to compromise and thus may be
          used by intruders to gain access to NASA’s computer network. Once inside, the
          intruder can use the compromised server to exploit other weaknesses, which could
          result in the loss or impairment of Agency IT resources.


Centers Need to Monitor Their Computer Server Configurations

  Since 2004, the NASA Office of the Chief Information Officer (OCIO) has required the
  Agency-wide use of applicable CIS-recommended benchmarks for the secure
  configuration of computer server operating systems. In addition, OCIO recommended
  using an automated scoring tool developed by CIS (the CIS Configuration Assessment
  Tool) as a way for Centers to validate implementation of the benchmarks. In 2007,
  OCIO updated its policy for configuration management by establishing a timeframe for
  meeting performance targets, by operating system, for different benchmarks. For
  example, by FY 2007 Centers should have met 100 percent of benchmark settings for all
  Windows-based servers and 80 percent of benchmark settings for all other computer
  server platforms.

  Although Center employees responsible for IT security were aware of the requirement to
  configure server operating systems according to the applicable benchmarks, none of the
  four Centers we visited had a process in place for monitoring their computer servers to
  ensure that they remained securely configured over time. Indeed, Center employees
  stated that such monitoring was not required. We also found that none of the Centers we
  visited regularly used the OCIO-recommended CIS Configuration Assessment Tool to
  test their computer server configurations against the related benchmarks.




REPORT NO. IG-10-019                                                                              3
                                                                                                       RESULTS



Computer Servers Were Not Securely Configured

    We tested the configuration settings of selected computer servers at the Centers we
    visited to determine whether they met OCIO-required performance standards. We
    grouped the servers by operating system: servers that used Microsoft Windows and
    servers that did not. We then tested the servers’ compliance with the appropriate CIS
    benchmarks. We tested 15 Windows-based servers and 7 Unix- and Linux-based servers.
    The Windows servers that we tested met an average of 68 percent of the benchmarks
    while the Unix and Linux servers that we tested met an average of 46 percent of the
    benchmarks.

    NASA could have detected and corrected these security weaknesses if it had processes in
    place to monitor servers to ensure they remained securely configured in accordance with
    recognized best practices and Agency IT security requirements. Because Centers did not
    monitor the configuration of their computer servers, Agency systems contained
    improperly configured servers, which are susceptible to exploitation and loss or
    impairment of mission-critical IT resources.

    As noted above, the Centers did not have complete inventories of the computers linked to
    their networks. Accordingly, we were unable to quantify the number of Agency
    computer servers that were not being adequately monitored for compliance with the
    applicable benchmarks.

    In a March 2006 review, we recommended that Centers establish inventories of the
    computers connected to their networks. However, the Agency has not yet developed
    these inventories. 5 Until NASA establishes an inventory of all computers connected to
    its networks, the Agency’s IT security program will not be fully effective in protecting its
    IT resources from potential exploitation.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

In order to strengthen the Agency’s IT security program, we reiterate our 2006
recommendation that NASA establish inventories of the computers connected to its
networks. Moreover, we urge NASA to expedite implementation of this recommendation.
We also made the following recommendation.

Recommendation 1. The NASA CIO should require Centers to monitor computer server
operating system configuration for compliance with CIS benchmarks and related OCIO-
mandated performance targets.


    5
        NASA decided to implement a single Agency-wide inventory instead of separate Center inventories,
        which NASA officials said has delayed the process.



4                                                                                     REPORT NO. IG-10-019
RESULTS



  Management’s Response. The CIO concurred, stating that an Agency-wide inventory
  of computers connected to NASA networks, the IT Security Enterprise Data Warehouse,
  became operational in July 2010. Information for the inventory comes from network
  vulnerability scans, NASA’s patch management and reporting system (PatchLink), and
  other sources. In addition, the CIO stated that NASA is developing security
  configuration baselines for computer server operating systems and is implementing tools
  that can monitor compliance with these baselines. OCIO plans to publish a baseline for
  the Windows 2003 server operating system by January 1, 2011, and will require
  monitoring for compliance with the baseline by August 1, 2011.

  Evaluation of Management’s Response. Management’s comments are not fully
  responsive to the intent of the recommendation. First, management’s proposed actions
  are not comprehensive because they only address the Windows 2003 server, just one of
  the many computer server operating systems used by the Agency. Second, monitoring of
  just this single computer server operating system will not begin until August 2011, a year
  from the date of our recommendation. Office of Management and Budget Circular
  No. A-123, “Management’s Responsibility for Internal Control,” revised December 2004,
  requires that managers take timely and effective actions to address issues, such as OIG
  recommendations. Circular A-123 also states that correcting issues is an integral part of
  management accountability and must be considered a priority by the Agency. Therefore,
  we are requesting that the CIO provide additional comments to address the above issues
  in response to this final report.




REPORT NO. IG-10-019                                                                           5
                                                                                          RESULTS




                                                          NASA’S VULNERABILITY
                                                          MANAGEMENT PROGRAM
                                                            COULD BE IMPROVED

           Although all four Centers that we visited regularly monitored their computer
           networks for technical vulnerabilities using a vulnerability scanning tool, none of the
           Centers could demonstrate that this monitoring process provided complete coverage
           of the Center’s computer networks. This occurred because, as noted earlier, the
           Centers did not have complete computer inventories and therefore could not ensure
           that their vulnerability detection and mitigation process had been applied to
           100 percent of the computers connected to their networks. As a result, some
           computers may not undergo vulnerability scanning and thus may contain undetected
           and uncorrected vulnerabilities.


NASA Should Verify that All Applicable Network Devices Undergo
 Vulnerability Monitoring

    None of the Centers that we visited could demonstrate that their vulnerability monitoring
    processes provided complete coverage of all applicable devices (e.g., computers, routers,
    and firewalls) connected to their networks. Verifying that all applicable devices
    connected to Center networks undergo regular vulnerability monitoring is necessary
    because vulnerability scanning tools, including the tool NASA uses, cannot scan devices
    for vulnerabilities if those devices are positioned behind internal firewalls or are turned
    off.

    Vulnerability scanners function by attempting to communicate with all applicable devices
    connected to the network or network segment that is being scanned by sending a message
    to each device and waiting for a reply. When a reply is received, communication is
    established and that device can be scanned for potential vulnerabilities. Firewalls,
    however, block messages from reaching devices that are positioned behind the firewall,
    preventing a vulnerability scanner from scanning those devices. Similarly, devices that
    are connected to the network but are not turned on will not respond to a communication
    request from the scanner and will therefore not be scanned for vulnerabilities.

    Because Centers did not verify the completeness of their vulnerability scans, high-risk
    vulnerabilities could go undetected during scanning and uncorrected during the
    mitigation process. This creates an environment where risk cannot be accurately
    measured and increases the possibility that vulnerabilities will be exploited through
    attacks. Exploitation of NASA’s high-risk systems can have severe consequences on
    NASA assets, operations, or personnel. For example, in January 2009 an intrusion
    resulting from an undetected vulnerability (in this case a server misconfiguration)
    resulted in the theft of 22 gigabytes of sensitive program data from a NASA Center.


6                                                                          REPORT NO. IG-10-019
RESULTS



   We believe that NASA can improve its vulnerability management program and prevent
   future exploitations by adding a “completeness check” to verify that all applicable
   devices connected to its networks are actually scanned. For example, matching entries
   from a Center-wide inventory of network devices to corresponding entries in a
   vulnerability scanning report is one way Centers could verify whether all applicable
   network devices undergo regular vulnerability monitoring.


Recommendation, Management’s Response, and Evaluation of
  Management’s Response

To reduce the risk of undetected and uncorrected vulnerabilities, we made the following
recommendation.

Recommendation 2. The NASA CIO should require that Centers implement a process to
validate that 100 percent of applicable network devices, including computers, routers, and
firewalls, undergo regular monitoring for technical vulnerabilities.

Management’s Response. The CIO partially concurred, stating that NASA Information
Technology Requirement (NITR) 2810-24, January 2010, requires that all IT devices
connected to NASA networks be subjected to monthly network-based vulnerability scans.
In addition, NITR 2810-24 requires that Center IT Security Managers oversee vulnerability
scanning, reporting, and mitigation activities at their respective Centers to ensure that all
requirements are met. Although OCIO strongly agreed that all applicable network devices
should undergo regular vulnerability scanning, OCIO stated that ensuring 100 percent of
devices are actually monitored was not possible.

Evaluation of Management’s Response. While we agree that ensuring 100 percent of
applicable devices connected to NASA’s networks are monitored for vulnerabilities is
probably an unattainable goal, OCIO needs to take some action toward meeting the intent of
this recommendation. In our judgment, NASA could implement processes to measure the
vulnerability scanning coverage of its computer networks and, over time, increase that
coverage. Therefore, we request that the CIO provide additional comments that describe
actions NASA can take to incrementally increase vulnerability scanning coverage of devices
connected to Agency computer networks.




REPORT NO. IG-10-019                                                                            7
                                                                                                  RESULTS




                                                                  NASA’S PROCESS FOR
                                                                MONITORING AGENCY IT
                                                                SYSTEMS FOR SOFTWARE
                                                                    PATCHES WAS NOT
                                                                            EFFECTIVE

              Ensuring that all computers connected to a NASA network have received the most
              current software updates is not only required by Agency policy, but is essential to
              maintaining the security of Agency computer systems and networks. Unpatched
              computers may contain vulnerabilities that, if exploited, could adversely affect the
              availability, confidentiality, and integrity of Agency systems and data. As part of
              its effort to monitor and report the software patch status of its computers, NASA
              uses a commercial patch management program called PatchLink. PatchLink
              requires the installation of software “agents” (programs) that communicate with a
              PatchLink server to determine, based on security policy, what patches need to be
              installed on the host computer to maintain effective network security. However,
              we found that at the time of our site visits (March through June 2009), NASA did
              not require system owners to implement NASA’s software patch monitoring and
              reporting solution (PatchLink).


NASA Did Not Require System Owners to Implement PatchLink

    NASA policy requires that all computer systems connected to an Agency network
    implement an effective software patch management program that includes verification
    that patches have been properly applied. 6 As noted above, NASA uses PatchLink to
    satisfy this requirement. However, we found that at the time of our site visits, NASA did
    not require system owners to install PatchLink on their network-connected devices. One
    reason commonly given by Center IT security personnel for why they did not install
    PatchLink was that PatchLink sometimes adversely affected their IT system’s
    performance. However, Center IT personnel did not provide evidence to back up this
    assertion.

    We communicated to OCIO our preliminary findings related to Centers’ patch
    management practices and indicated that we would recommend that OCIO require system
    owners to implement NASA’s patch monitoring program.




    6
        NASA Interim Technical Requirement 2810.1A, “Security of Information Technology,” May 2006.



8                                                                                  REPORT NO. IG-10-019
RESULTS



  In January 2010, OCIO issued policy 7 requiring system owners to implement a
  comprehensive patch monitoring program:

            To fulfill patch reporting requirements, all NASA IT devices and all devices on a
            NASA non-guest network shall either:
            a. Have the Agency patch management/reporting software agent installed. The soft-
            ware agent automatically reports patch status to the ITSEC-EDW. This requirement
            is applicable to all devices that can execute the Agency patch management/reporting
            software agent; or
            b. Be registered in the ITSEC-EDW, with patch status reported manually in ITSEC
            EDW by the second Monday of each month. This requirement applies only to
            devices that cannot execute the Agency patch management/reporting software agent.

  The policy also requires that Center Information Technology Security Managers oversee
  patch management and reporting activities to ensure that all requirements are met.
  Accordingly, a recommendation to address this finding was not necessary.




  7
      NITR 2810-24, “NASA IT Device Vulnerability Management,” January 28, 2010.



REPORT NO. IG-10-019                                                                              9
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed our audit from January 2009 through June 2010 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform our work to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  We assessed whether NASA had effective processes in place for configuration
  management, vulnerability management, and patch management that met the continuous
  security control monitoring requirement defined in National Institute of Standards and
  Technology Special Publication 800-37 at four Centers: Goddard Space Flight Center,
  Johnson Space Center, Kennedy Space Center, and Langley Research Center.

  We developed questionnaires addressing each of those processes. During site visits, we
  used these questionnaires to interview NASA and contractor staff responsible for each
  area. We also evaluated processes and tools they used to maintain operating system
  configurations, to detect and remediate technical vulnerabilities, and to apply software
  patches. Finally, we conducted configuration tests on Center computer servers to assess
  compliance with Agency configuration management procedures.

  We reviewed the following Federal and Agency criteria, policies, and procedures:

      •   National Institute for Standards and Technology Special Publication 800-37,
          “Guide for the Security Certification and Accreditation of Federal Information
          Systems,” May 2004;

      •   National Institute for Standards and Technology Special Publication 800-40,
          Version 2.0, “Creating a Patch and Vulnerability Management Program,”
          November 2005;

      •   NASA Procedural Requirements 2810.1A, “Security of Information Technology,”
          May 16, 2006;

      •   NASA Standard Operating Procedure, ITS-SOP-0012, “Patch Selection and
          Reporting Procedures,” July 2007;

      •   NASA Interim Technology Requirement 2810-12, “Continuous Monitoring,”
          May 18, 2008;



REPORT NO. IG-10-019                                                                          11
                                                                                     APPENDIX A



        •   NASA OCIO Memorandum, “Center for Internet Security (CIS) Consensus
            Benchmarks,” September 2, 2004;

        •   NASA OCIO Memorandum, “FY 2007 and FY 2008 Patch Management and
            Security Configuration Metrics,” April 4, 2007;

        •   NASA OCIO Memorandum, “Supplemental FY08 Guidance for Agency Security
            Configurations Standards and FDCC [Federal Desktop Core Configurations]
            Reporting,” February 20, 2008; and

        •   NASA OCIO Memorandum, “FY 2009 Scanning and Vulnerability Elimination or
            Mitigation,” February 6, 2009.

     Computer-Processed Data. We relied on data produced from a commercial software
     program to perform configuration tests on NASA computer servers. Specifically, we
     used the CIS Configuration Assessment Tool to assess computer server operating system
     compliance with the applicable CIS benchmarks. We did not validate the data produced
     by the tool because this tool is widely accepted as a reliable source for providing
     information on operating system configuration settings.

     Review of Internal Controls. We reviewed internal controls for NASA’s IT security
     program related to authority, responsibility, and organizational structure. We also
     reviewed IT security procedures governing configuration management, vulnerability
     detection and mitigation, and software patch management. The control weaknesses we
     identified are discussed in the Results section of this report. Our recommendations, if
     implemented, will correct the identified control weaknesses.

     Prior Coverage. During the last 5 years, the NASA OIG and the Government
     Accountability Office (GAO) have issued two reports of particular relevance to the
     subject of this report. Unrestricted reports can be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY10 (NASA OIG) and http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “NASA’s Implementation of Patch Management Software Is Incomplete” (IG-06-007,
     March 17, 2006)

     Government Accountability Office

     “Information Security: NASA Needs to Remedy Vulnerabilities in Key Networks”
     (GAO-10-4, October 15, 2009)




12                                                                         REPORT NO. IG-10-019
APPENDIX B




                       MANAGEMENT COMMENTS




REPORT NO. IG-10-019                         13
              APPENDIX B




14   REPORT NO. IG-10-019
APPENDIX B




REPORT NO. IG-10-019   15
                                                                                 APPENDIX C




                                                         REPORT DISTRIBUTION

National Aeronautics and Space Administration

     Administrator
     Deputy Administrator
     Chief of Staff
     Chief Information Officer
     Ames Research Center Chief Information Officer
         Information Technology Security Manager
     Dryden Flight Research Center Chief Information Officer
         Information Technology Security Manager
     Glenn Research Center Chief Information Officer
         Information Technology Security Manager
     Goddard Space Flight Center Chief Information Officer
         Information Technology Security Manager
     Jet Propulsion Laboratory Chief Information Officer
         Information Technology Security Manager
     Johnson Space Center Chief Information Officer,
         Information Technology Security Manager
     Director of Information Technology and Communication Services, Kennedy Space
       Center
         Information Technology Security Manager
     Langley Research Center Chief Information Officer
         Information Technology Security Manager
     Director, Office of the Chief Information Officer, Marshall Space Flight Center
         Information Technology Security Manager
     Chief Information Officer, NASA Shared Services Center
         Information Technology Security Manager, NASA Shared Services Center
     Stennis Space Center Chief Information Officer
         Information Technology Security Manager

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, NASA Financial Management, Office of Financial Management and
           Assurance
        Director, NASA Issues, Office of Acquisition and Sourcing Management




16                                                                     REPORT NO. IG-10-019
APPENDIX C



Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Management, Organization, and Procurement
  House Committee on Science and Technology
     Subcommittee on Investigations and Oversight
  Subcommittee on Space and Aeronautics




REPORT NO. IG-10-019                                                        17
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Jefferson Gilkeson, Project Manager
   Richard Curtis, Audit Team Lead
   Howard Kwok, Senior Auditor
   Eric Jeanmaire, Auditor




REPORT NO. IG-10-019                                        19
                                                                                 SEPTEMBER 14, 2010
                                                                        REPORT No. IG-10-019




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
